<html>
<title> - AMERICA STILL UNPREPARED-AMERICA STILL IN DANGER: THE OCTOBER 2002 HART-RUDMAN TERRORISM TASK FORCE REPORT</title>
<body><pre>[Senate Hearing 107-978]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-978

  AMERICA STILL UNPREPARED-AMERICA STILL IN DANGER: THE OCTOBER 2002 
                HART-RUDMAN TERRORISM TASK FORCE REPORT

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TECHNOLOGY, TERRORISM,
                       AND GOVERNMENT INFORMATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 14, 2002

                               __________

                          Serial No. J-107-111

                               __________

         Printed for the use of the Committee on the Judiciary



88-882              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

   Subcommittee on Technology, Terrorism, and Government Information

                DIANNE FEINSTEIN, California, Chairwoman
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
HERBERT KOHL, Wisconsin              MIKE DeWINE, Ohio
MARIA CANTWELL, Washington           JEFF SESSIONS, Alabama
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
                 David Hantman, Majority Chief Counsel
                Stephen Higgins, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cantwell, Hon. Maria, a U.S. Senator from the State of 
  Washington, prepared statement.................................    36
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........     5
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois, prepared statement...................................    77
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     4
    prepared statement...........................................    86
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     6
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     7
    prepared statement...........................................   100
Sessions, Hon. Jeff, a U.S. Senator from the State of Arizona, 
  prepared statement.............................................   109
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     5

                               WITNESSES

Flynn, Stephen E., Member, Independent Terrorism Task Force, and 
  Jeane J. Kirkpatrick Senior Fellow, National Security Studies, 
  Council on Foreign Relations, New York, New York...............    14
Larsen Randall J., Director, ANSER Institute for Homeland 
  Security, Arlington, Virginia..................................    19
Odeen, Philip A., Chairman, TRW, Inc., and Member, Independent 
  Terrorism Task Force, Arlington, Virginia......................    17
Rudman, Warren, Co-Chair, Independent Terrorism Task Force, 
  Washington, D.C................................................     9

                       SUBMISSIONS FOR THE RECORD

Council on Foreign Relations, Independent Terrorism Task Force, 
  Washington, D.C., report.......................................    39
Flynn, Stephen E., Member, Independent Terrorism Task Force, and 
  Jeane J. Kirkpatrick Senior Fellow, National Security Studies, 
  Council on Foreign Relations, New York, New York, prepared 
  statement......................................................    81
Kamarck, Elaine, John F. Kennedy School of Government, Harvard 
  University, statement..........................................    88
Larsen Randall J., Director, ANSER Institute for Homeland 
  Security, Arlington, Virginia, prepared statement..............    93
National Governors Association, Washington, D.C., letter.........   104
National Guard Association of the United States, Washington, 
  D.C., letter...................................................   106
Odeen, Philip A., Chairman, TRW, Inc., and Member, Independent 
  Terrorism Task Force, Arlington, Virginia, prepared statement..   108

 
  AMERICA STILL UNPREPARED-AMERICA STILL IN DANGER: THE OCTOBER 2002 
                HART-RUDMAN TERRORISM TASK FORCE REPORT

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2002

                              United States Senate,
                     Subcommittee on Technology, Terrorism,
                                and Government Information,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, Chairman of the Subcommittee, presiding.
    Present: Senators Feinstein, Leahy, Schumer, Kyl, Hatch, 
and DeWine.

OPENING STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM 
                    THE STATE OF CALIFORNIA

    Chairperson Feinstein. Senator Kyl has indicated he will be 
here shortly, but since I have this distinguished panel here, I 
thought I might at least start my remarks.
    This is going to be the last hearing of this Subcommittee 
in this Congress, and probably the last hearing I chair for the 
next 2 years. I did want to thank my ranking member, Senator 
Kyl, who has really exhibited leadership and cooperation, all 
with the highest marks. It has been a great privilege for me to 
work with him this Congress, and now I look forward next year 
to our positions reversing.
    This Subcommittee has held 13 hearings this Congress. That 
makes it the most active Subcommittee on the Judiciary 
Committee.
    I see we are about to be joined by the ranking member, who 
will shortly become the Chairman of the full Committee. We are 
delighted to welcome you, Senator Hatch.
    Senator Hatch. Thank you very much.
    Chairperson Feinstein. Perhaps you would take Senator Kyl's 
seat until he is able to be here.
    A number of the hearings of our Subcommittee resulted in 
legislation. I would like particularly to mention the Enhanced 
Border Security and Visa Reform Act, and the Public Health 
Security and Bioterrorism Preparedness Act. Parts of both of 
these bills came right out of this Subcommittee.
    Also as a result of Subcommittee hearings, for example, 
Senator Kyl and I were able to get the provisions in the 
bioterrorism bill establishing strict new security requirements 
for labs that handle dangerous pathogens. Those provisions 
became law in June.
    Many of our meetings were on the need for more coordination 
and consolidation of the agencies that combat terrorism, an 
issue which is very much on the minds of Members of Congress 
this week.
    For example, back in April of 2001, we held a hearing on 
the report of the United States Commission on National Security 
in the 21st Century, more popularly known as the Hart-Rudman 
report. At that hearing, we heard testimony from our 
distinguished former colleagues, Senator Warren Rudman and Gary 
Hart, and I am just delighted that Senator Rudman, who has been 
really wonderful in coming to these meetings, is back before 
the Subcommittee today.
    While some may complain about commission reports gathering 
dust on the shelves, there can be no question about the 
influence of the original Hart-Rudman report. That report 
proposed a new Homeland Security Department that would combine 
four Federal agencies--FEMA, the Coast Guard, Customs, and 
Border Patrol. Many experts dismissed the idea of creating such 
a department as too ambitious and too politically unrealistic. 
But right now, Congress seems very close to passing historic 
legislation that would combine some 22 Federal agencies, with 
about 200,000 Federal employees.
    The original Hart-Rudman report was a wake-up call for the 
Nation, but one that we actually heard too late. In the report, 
the commission warned, and I quote, ``Attacks against American 
citizens on American soil, possibly causing heavy casualties, 
are likely over the next quarter century,'' end quote. Less 
than 6 months after that, a group of Al-Qaeda terrorists killed 
almost 3,000 people in New York, Virginia, and Pennsylvania.
    Now, Senators Hart and Rudman have joined up with a 
distinguished group of former government officials and private 
sector leaders to research and write a new report. Members of 
this new 17-member Hart-Rudman Task Force include two former 
Secretaries of State, two former Chairmen of the Joint Chiefs 
of Staff, and two Nobel laureates.
    The task force report is chilling to read, and its 
conclusion is even more disturbing. It reads, and I quote, ``A 
year after September 11th, America remains dangerously 
unprepared to prevent and respond to a catastrophic terrorist 
attack on U.S. soil. In all likelihood, the next attack will 
result in even greater casualties and widespread destruction to 
American lives and the economy,'' end quote.
    To reduce this vulnerability, the task force makes a number 
of useful recommendations, focusing particularly on how we can 
protect relatively neglected areas of our economic 
infrastructure such as seaports, power plants, oil refineries, 
railroad, and urban centers.
    The task force's conclusion is especially worrying because 
it seems more and more likely that America will face a 
catastrophic terrorist attack. Both Senator Hatch and I serve 
on the Joint Intelligence Committee and we heard the DCI, 
George Tenet, come before the Committee just before we broke 
and say with a very ominous tone that they are coming at us 
again. And we know that the intelligence chatter is up and that 
the threat is real and it is serious.
    Since September 11, though, the Congress has passed major 
anti-terrorism legislation in the areas of law enforcement, 
intelligence, aviation security and, as I mentioned previously, 
border security and bioterrorism.
    Last summer, Senators Kyl, Hutchison, Snowe and I 
introduced the Comprehensive Seaport and Container Security Act 
of 2002. This legislation would really thoroughly address the 
issue of port security from the point that cargo is loaded in a 
foreign country to its arrival on land in the United States.
    We had hoped to be able to get that included in the 
conference report of the seaport security bill that was just 
voted on this morning. Although I voted for the bill, as did, I 
think, virtually every other member, it is still a very weak 
bill. My staff worked with the conference committee on the 
legislation, and I am hopeful that we will be able to continue 
to work next year. In particular, I look forward to working 
with Mr. Thomas in the House in this regard. We must have a 
strong seaport security bill, particularly for my State, which 
receives about 40 percent of the cargo coming into this 
country. If something deadly or radioactive is going to be 
smuggled into the United States, the most obvious way is 
through our seaports on a container.
    In addition, Senators Bond, Leahy and I filed an amendment 
to homeland security with respect to creating a successful 
National Guard program. And I am delighted that you are here, 
Mr. Chairman, or almost-Mr. Chairman, because I think that this 
is something hopefully we can work on next year.
    It has the support of the National Governors' Association, 
and I would like to place their letter in the record at this 
time, as well as the letter of the National Guard Association 
of the United States, and also the relevant comments from the 
United States Commission on National Security for the 21st 
Century, again known as the Hart-Rudman Commission. I am 
hopeful that this Committee will continue to proceed in this 
area.
    Something that this report discusses indirectly relates to 
legislation that is now sponsored by Senator Jeffords and Bob 
Smith. It authorizes $3.5 billion to help State and local 
governments buy equipment and improve training for responding 
to a terrorist attack, and it passed the Senate Environment 
Committee.
    One of the things that this panel is going to make clear is 
the fact that the States are still left out in the cold. For 
example, the task force report has a very significant 
recommendation to create a 24-hour center in each of the States 
that can be responsible for interoperable communication systems 
between various agencies. Then if we were able to get the 
National Guard involved, they, who would already be trained to 
use such systems, would be able to be a first responder in 
certain situations. So there is a lot of work left to be done.
    Just before I introduce the panel, I would like to ask the 
ranking member of the overall Committee and the future 
Chairman, someone whom I greatly respect, Senator Hatch, if he 
would like to make some comments.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, thank you, Madam Chairman, and I 
certainly want to welcome all of you here as witnesses here 
today.
    Madam Chairman, thank you once again for holding this 
important hearing on the Hart-Rudman report on terrorism. I 
think you and Senator Kyl have shown tremendous leadership in 
the areas of terrorism and homeland defense, and you both have 
had a tremendous impact in the Senate and throughout the 
Congress in this area.
    Well before the attacks of September 11, both Senators 
focused this Subcommittee's efforts on our Nation's national 
security, and I think I speak for all members of the Committee 
in commending both of you for your great leadership in this 
area.
    Let me also take a moment to welcome back to the Senate a 
dear friend and former colleague, Senator Rudman.
    I am really pleased to see you again, Warren, and I want to 
thank you again for devoting your time and energy to the public 
in helping to produce this very important report. And I want to 
thank the rest of the witnesses for coming down here today to 
discuss your thoughts with us.
    Having reviewed the Hart-Rudman report, I am intrigued by 
many of the recommendations it makes. In particular, let me 
focus on two specific recommendations. First, the Hart-Rudman 
report emphasizes the immediate need to create the Department 
of Homeland Security. Our President and the American people 
have made it abundantly clear that we need to enact this long-
stalled legislation to create the new Department of Homeland 
Security.
    I am encouraged by recent reports and efforts to move this 
legislation, and I fully expect that the Senate will soon join 
the House in passing this important legislation so that the 
President can sign it and get started on creating this new and 
vitally important agency. As I have said before, this issue 
cannot fall prey to partisan politics. Our country's security 
and the safety of our people depend on enacting this 
legislation.
    Second, the Hart-Rudman report notes that 650,000 State and 
local police officials continue to operate in a virtual 
intelligence vacuum without meaningful access to critical 
intelligence information.
    In previous hearings before the Senate Select Committee on 
Intelligence, I have indicated my concerns about the absence of 
effective intelligence-sharing. The PATRIOT Act was a giant 
step forward in breaking down barriers to intelligence-sharing 
among law enforcement and intelligence agencies, and it was 
negotiated right here at the table our witnesses are sitting 
at.
    Yet, in my view, there is still more to do in this area. 
Specifically, there are existing restrictions on law 
enforcement's ability to share critical information with State 
and local law enforcement, as well as foreign law enforcement 
agencies, all of whom can play and may play a very important 
role in our united fight against terrorism.
    I look forward to hearing from today's witnesses on the 
Hart-Rudman report, and other matters as well. This hearing is 
a good place to start and listen to viewpoints on this subject.
    We all have a common goal to protect our Nation from the 
devastating threat of terrorism. The devil, as usual, is in the 
details and I am well aware of the fact that there are a myriad 
of different opinions on this issue, as there are on other 
issues of great weight and importance. But, of course, some 
opinions are more persuasive than others, and I feel privileged 
to be here today to listen to some of the most distinguished 
and knowledgeable people on this subject.
    Again, I want to thank all of you who are testifying today, 
and I certainly want to thank you, Madam Chairman. I think you 
have done a terrific job on this Subcommittee. I have watched 
you over the years and I think you do a terrific job on the 
Committee as a whole and I just feel very honored to be able to 
work with you.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    Chairperson Feinstein. Thank you very much, Senator Hatch.
    We are also joined by Senator Schumer and DeWine. Following 
the early bird rule, I will go to Senator DeWine next and then 
you, Senator Schumer.

STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. I will be very brief. I just want to thank 
you for holding this hearing. Through your service on this 
Committee, as well as your service on the Intelligence 
Committee, I think you well understand the importance of this 
report, and I am just looking forward to hearing the panelists' 
comments.
    I am particularly interested in the report's 
recommendations in regard to the National Guard, and I will be 
anxious to hear Senator Rudman's comments as well as our other 
panelists. We are looking forward to that very much.
    Thank you.
    Chairperson Feinstein. Thanks, Senator.
    Senator Schumer.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, and I want to thank you, Madam 
Chairperson, for the job you are doing on this Subcommittee, 
which has been terrific. Thank you for that.
    I want to thank our panelists, and particularly I want to 
come to thank Senator Rudman and Senator Hart for the report 
that they issued. You are really the Paul Reveres of this 
rather sorry situation, in my judgment, in terms of homeland 
security.
    I think, as a whole, our Nation is doing an excellent job 
in fighting the war on terrorism overseas, and I have been 
generally supportive of that war. But at the same time, as good 
a job as we are doing focusing on the danger that terrorism 
presents overseas, we are doing a poor job on homeland 
security, an unbelievably poor job, in my judgment, given the 
dangers that we face.
    Let me tell you a few little points here that I am 
concerned with. To me, one of the great dangers we face--and 
your report, Senator Rudman, brought it out--is that a nuclear 
weapon could be smuggled into this country on one of the large 
containers that come by the thousands into our ports and over 
our Mexican and Canadian borders, covered by trucks.
    Senator Warner and I have put together legislation that 
would allow our scientists to create a detection device. Right 
now, you can't detect it; you can with a Geiger counter, but 
you can't go on each container. A Geiger counter only works 
three feet away from the radioactive source. But we could 
develop such a device.
    We put the legislation in, and $250 million, a small cost, 
it seems to me, to deal with such a great danger. We can't get 
that legislation passed because in both the port security bill 
which just passed and in the homeland security bill, there is a 
rule that nothing can cost money.
    Well, you can't fight the war on domestic terrorism unless 
you are going to spend some dollars, and we are not. Whether it 
is the ports or rail or cyber terrorism or any of these other 
places, there are gaping holes in our security. Now, no one 
expects them to be fixed overnight, but we are not even making 
a start on them.
    Your report and that of Senator Hart, Senator Rudman, has 
really alerted the Nation, and I would just hate to think that, 
God forbid, there would be another terrorist incident and then 
we would all say why didn't we heed the admonitions in that 
report.
    There are so many areas where we are doing virtually 
nothing. We either don't have the will, or more importantly--it 
is an anomaly to me why we are willing to spend $40, $60, $80, 
$100 billion to fight terrorism overseas--again, I have been 
supportive of that--and not willing to spend $2 or $3 billion 
to support the war here at home.
    So I thank you for having this hearing, Madam Chairperson. 
I think it is crucial.
    And I want to thank you, Senator Rudman, for sending out 
the warning, and my message to you is please don't stop. This 
Nation needs to be alerted to the danger and this Government 
better get on the stick and start dealing with the danger--
something we are not doing now.
    Thank you, Madam Chairperson.
    Chairperson Feinstein. Thanks very much, Senator Schumer.
    I would now like to turn to our ranking member. We are 
joined by Senator Kyl.
    Before recognizing you, I just want to thank you. I 
couldn't have a better colleague, a better ranking member. 
Hopefully, when our positions will switch, we will be able to 
continue as we have. You indeed have been quite wonderful and I 
am very appreciative of that.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you very much, Senator Feinstein. I have 
to echo the comments.
    I hope that those of you in the audience who are not 
familiar with this Subcommittee will appreciate the fact that 
for 8 years now, Senator Feinstein and I have gone back and 
forth as Chairman and ranking member of this Subcommittee in a 
seamless effort, I believe, to try to do our very best to try 
to deal with the kinds of problems that are identified, among 
other things, by this report.
    We will continue to do that, irrespective of which party 
happens to be in the majority, and that is one of the great 
things about the time that I have been able to serve here in 
the U.S. Senate. These are trying times, important times, with 
big problems in front of us, and this Committee has a 
responsibility to understand everything we can.
    Fortunately, we have a very prestigious panel in front of 
us here, and therefore I will put my statement in the record 
and look forward to hearing from the people whom we can here to 
learn from.
    Thank you very much, Madam Chairman.
    Chairperson Feinstein. Thanks very much, Senator Kyl.
    We are also joined by the Chairman of the Judiciary 
Committee, and I want to thank you for being here today and I 
want to thank you for your leadership, and would like to turn 
it over to you.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. Well, thank you, Senator Feinstein. I want 
to thank you and Senator Kyl for having this hearing. When you 
first raised this with me a couple of weeks ago, the idea of 
having the hearing, I thought it made a great deal of sense.
    I know a number of the people who are here, and I might 
just say as a personal matter I served with Warren Rudman. We 
were the twins across the river, and when you speak of 
bipartisan work, I cannot think of a single issue that involved 
that part of our country that we didn't work together on, and a 
whole lot of other issues that we worked very closely on, 
national security matters, some of which, as Senator Rudman 
knows, I can't discuss here in this open hearing. But I think 
we accomplished a lot because it was never an issue of 
partisanship.
    I would tell one story, which was one time on an attack 
submarine, Los Angeles class--and if any of you have ever been 
on one of those, the controls for the submarine are right in 
the center. There is the accounting tower and the periscope, 
and the controls are there in the center and it is like an 
airplane.
    Senator Rudman is a very accomplished pilot, and they were 
going to let each one of us take turns, with one of the pilots 
in the co-pilot's seat, to actually make this move underwater. 
And I turned to the skipper and I said, ``Skipper, Senator 
Rudman has bet me $50 that I cannot do a barrel roll with 
this.''
    Now, it was at that point I realized that those trained by 
the legendary Admiral Rickover were not picked for their 
immediate sense of humor, and both Warren and I had to tell 
them immediately that we were joking. The rest of the reason 
for our being there, though, was a matter of significance and I 
appreciate that.
    I could say the same about Gary Hart. Senator Rudman and 
Senator Hart have done far greater service to this country than 
most people in this country know and that most people have not 
yet reflected on. I wish more would. Your report shows a 
pragmatic, clear-headed approach, one devoid completely of 
politics, but one that reflects only one overall interest, and 
that is the security of our country.
    Warren, you and Gary--I have always been proud of the fact 
that I served with both of you. But as an American, I couldn't 
be more proud of what you have done in this.
    Senator Feinstein, you and Senator Kyl do that kind of 
service in having the hearing and I commend both of you.
    I would like to just mention three key suggestions. The 
report makes important recommendations on how we help first 
responders in our rural and urban communities plan and train. 
This is extremely important. We made progress when we 
established domestic preparedness grants in the USA PATRIOT 
Act. So far, there is only one such center. We need to do 
better.
    We have authorized several new centers in the Department of 
Justice Authorization Act that the President signed a couple of 
weeks ago. Whether it is urban areas or rural areas, each face 
different issues. In rural areas, I have got to tell you we 
really need help. The report recommends that the National Guard 
be better equipped to deal with the domestic defense mission 
and help first responders. That is absolutely so. We have to 
give them the equipment to do it.
    Second, I agree with the recommendations in the report that 
we need to improve our border security, particularly with our 
largest trading partner, Canada. In the PATRIOT Act, we called 
for the tripling of border security agents and the deployment 
of enhanced security technology. That is very important, and I 
hope everybody reads that part especially.
    And then, last, increased information-sharing. We have got 
to get better in cooperation. Senator Rudman was attorney 
general of his State and I was State's Attorney in mine. One of 
the things I hear over and over again in this Committee is we 
need better sharing.
    We saw it in the early part of the sniper rampage here in 
Washington, D.C., and the efforts to start sharing, and 
realized the inadequacies we have here. Fortunately, things 
started to come together and somebody has been charged now. But 
we have got to make sure we have the ability to share real, 
timely information.
    Madam Chair, in the interest of time I am going to put the 
rest of my statement in the record, but I wanted to make those 
points. And I did want to commend my good friend from New 
Hampshire, Senator Rudman. I wanted to commend what he and 
Senator Hart have done, and all of the rest of you, I hasten to 
add, but I served with both of them. And you have to understand 
this is a matter where they used to be very lonely voices in 
the Senate dining room and in the closed meetings and in the 
cloak rooms long before September 11th, saying wake up.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairperson Feinstein. Thanks very much, Mr. Chairman. I 
appreciate that.
    I would like to begin now and introduce our four 
distinguished panelists. We very much appreciate your being 
here, and I will begin with Senator Rudman.
    He was a United States Senator for 12 years and served on 
several Committees, including Intelligence, Appropriations, and 
Governmental Affairs. He has been very active since leaving the 
Senate. He serves as Chairman of the President's Foreign 
Intelligence Advisory Board and as vice Chairman of the 
Commission on Roles and Capabilities of the United States 
Intelligence Community.
    He has been the recipient of numerous awards in honor of 
his years of devoted public service, including the Department 
of Defense's Distinguished Service Medal, which is the agency's 
highest civilian award.
    If I might, I will just introduce the other three at this 
time and then we can just go right down the line.
    Our next witness will be Stephen Flynn. He is the Jeane 
Kirkpatrick Senior Fellow in National Security Studies at the 
Council on Foreign Relations. He is a former commander of the 
Coast Guard and his experience deals directly with homeland 
security missions. He is the former director of the Office of 
Global Issues at the National Security Council. Dr. Flynn has 
been very helpful to my staff in a collaborative effort to 
create comprehensive seaport security legislation, and your 
expertise, I want you to know, is very, very valued.
    Mr. Philip Odeen is the Chairman of TRW, Incorporated, and 
a member of the board of directors. In addition to his nearly 
30 years in the private sector, he has built an impressive 
record in the public sector as well. He served as Principal 
Deputy Assistant Secretary of Defense, and later led the 
defense and arms control staff for then-National Security 
Advisor Henry Kissinger.
    He was also selected by former Secretary of Defense William 
Cohen in 1997 to chair the National Defense Panel. He is 
currently a member and former vice Chairman of the Defense 
Science Board, as well as a member of the Chief of Naval 
Operations Executive Panel.
    Colonel Randy Larsen is an ANSER vice president and the 
director of the Institute of Homeland Security. Colonel Larsen 
is an expert on the issue of homeland security, having studied, 
written, and taught extensively on asymmetric and biological 
warfare and the 21st century challenges to homeland security. 
He has served as a government advisor to the Defense Science 
Board, and he was the co-developer of the nationally acclaimed 
Dark Winter exercise. That exercise simulated a major 
bioterrorism outbreak in the United States. Colonel Larsen 
retired after 32 years of service in the Army and Air Force, 
and has been awarded numerous military decorations for his 
service.
    Those are our panelists, and now we will begin with the 
distinguished former Senator and someone who is always--every 
time we have asked, he has come to this Subcommittee, and I 
want you to know how grateful we are, Senator Rudman.

  STATEMENT OF WARREN RUDMAN, CO-CHAIR, INDEPENDENT TERRORISM 
                  TASK FORCE, WASHINGTON, D.C.

    Senator Rudman. Madam Chairman, Senator Kyl, soon-to-be-
chairman Hatch, Chairman Leahy, Senator Schumer, and my good 
friend Mike DeWine, I am privileged to be here. I know better 
than most the burdens that you bear, and they are substantial.
    The 435 members of the House, the 100 members of the U.S. 
Senate, and the President of the United States and his Cabinet 
have in their hands the security, the safety, and the well-
being of 250 million Americans. It is not easy and there are 
varying views, but I must say to you, Madam Chairman, that this 
Committee has been seamless in its approach to this issue.
    I could never tell who was a Democrat and who was a 
Republican. This Committee has truly done wonderful work, and I 
can tell you that the United States Commission on National 
Security, which I was honored to co-chair with Gary Hart, has 
recognized that, as well as the work of other Committees in the 
Senate and the House that have tried valiantly to address the 
issue.
    I want to address just a few of the comments made in 
opening statements. I would say to Senator Hatch that we 
rejoice--the 14 members of the National Security Study 
Commission who spent 3 years of our lives on that report and 
recommended essentially the structure that eventually became 
the legislation rejoice that it is finally going to become law.
    Let the past be the past. Why did the delays happen? They 
happened. The important thing is it is now going to become law, 
and I must say that nothing is more important than integrating 
the 43 agencies and divisions of agencies into a cohesive unit 
under strong leadership to start to organize homeland security.
    Senator Schumer, I would agree with you that a lot that 
should have been done has not been done. I have looked at this 
for a long time. I think the administration reacted very 
rapidly with the appointment of Tom Ridge. I am very familiar 
with what they are doing, and I must say that they have done a 
great deal. I think the Congress has done a great deal. The 
PATRIOT Act was an important piece of legislation. Other 
legislation was important.
    I understand, being on the Appropriations Committee, how 
difficult these issues are in a time of scarce resources. But I 
think that although there is certainly some truth to what you 
say, I would tell you that what we say in this report that 
essentially if you take an aircraft carrier steaming at 30 
knots and you try to turn it around, it takes a little time to 
get that done.
    This has been a tough assignment because until September 
11, in spite of not only our report but other reports, people 
did not take seriously the fact that the great Pacific and 
Atlantic Oceans no longer protected us from adversaries that 
presented an asymmetric threat to anything that we had ever 
looked at.
    So I just wanted to make those comments to some of the 
statements made here. By the way, thank you all for your 
gracious personal comments. I watch what you all do with great 
interest, no regret, but with great interest.
    I want to just add to Senator Feinstein's introduction of 
the panel that, in addition to those that she mentioned, we 
also had, of course, Bill Webster, former head of the FBI and 
the CIA. We had a number of scientists and academics and a 
number of very prominent businessmen.
    The genesis of this panel is very interesting. All of you 
know, I know, are familiar with Les Gelb or know him 
personally. Les was on the originally Hart-Rudman commission 
and about two-and-a-half months ago he called me and said, you 
know, it is now more than a year later; a lot has been done, 
but let's pick six or seven key issues and see if we can get 
everybody's attention.
    Well, we surely got everybody's attention. This got more 
coverage by a factor of 10,000 than the original report which 
was 3 years in the making. And so what you see before you is 
our prioritization of what we think is absolutely vital to get 
done, and to get done soon.
    I must say that I have been very pleased with the reception 
of this latest report. Without naming names, I will tell you 
that I have received calls from six of the highest-ranking 
people in this administration thanking us for the work that we 
did. That pleases us because it means that they are looking at 
it, and they are.
    I have received invitations from a number of the Cabinet 
agencies to look at what they are doing. And, of course, I have 
accepted those because to the extent that we can add anything, 
we will.
    I want to thank Commander Flynn, who was a major resource 
on the original Hart-Rudman. He was then an active Coast Guard 
officer and was on temporary duty to, I believe, the council at 
the time. And we borrowed him and he did enormous work, and he 
staffed this for us. This was put together in about a 9-week 
period because we had so much to work on and so many things on 
which to base our work.
    I know Commander Flynn has a substantial statement to read. 
Mine is informal. Let me just highlight a few things that I 
think you have talked about in your opening statements and I 
think are absolutely critical.
    It is absolutely essential that the Judiciary Committee and 
the Intelligence Committees get together with the FBI and the 
CIA and find a way to filter out sources and methods and be 
sure that important information gets to the chiefs of police, 
whether it be in Barry, Vermont, or Syracuse, New York, or 
Cleveland or Salt Lake City or Phoenix.
    I was in Cleveland on Tuesday night and spoke to a large 
audience at Baldwin-Wallace College, and then in the morning to 
a large business group in Cleveland. And I will tell you, 
Senator DeWine, something I am sure you know. The people of 
this country are very concerned; they are very concerned. And 
wherever I go, people are waiting for visible action, which I 
know will start to happen soon with the creation of this 
department.
    Recommendation one: There must be more intelligence-
sharing. You know that. There are ways to do that without 
compromising sources and methods. Those of us who have been on 
the Intelligence Committee know how that is done. I don't 
subscribe to the notion that we need a new MI5, along the 
British model. I think that will simply postpone action. I 
think we have got the resources, we have got the collection, we 
have got the people. Now, it is a question of focusing their 
mission.
    Second, with all of the screeners at the airports--and some 
will disagree with this--I think if it had been a port attack 
on September 11, we would have put all the money into the 
ports. However, it wasn't, so we are putting something like 
$200 million a month, a delta above the normal expenditure, 
into airport security.
    With all due respect, with the scarcity of funds, there are 
so many things that have to get done that I question whether 
that is a wise expenditure of resources. Not that we shouldn't 
have secure airports, but we seem to be putting all of the 
money into the TSA and very little into other places which are 
absolutely critical.
    Next, something that you all know. New York City was very 
fortunate. It has an extraordinary fire and police department--
they are huge on a per capita basis--and marvelous emergency 
medical response. They were prepared to do many things. I 
wonder whether or not we could say that about most American 
cities. In fact, I have looked at numbers and I think the 
answer is probably it would not be up to the standards that New 
York City exhibited on 9/11.
    What do we do about that? We know that these people need 
training in chemical and biological response. We know that they 
need equipment. We know that the health agencies need vaccines 
and equipment. I would submit to you that we are talking about 
a small amount of money, to take maybe the 100 largest cities 
in America and some of the States that are small, but at least 
you could centralize it, and start doing some training of these 
people.
    Now, I know that that is supposed to happen when FEMA 
becomes part of the new Department of Homeland Security. But I 
hope the money is appropriated for it because we have just 
appropriated $349 billion for a Defense budget. And I fully 
support that, I always have. It is important. But with all due 
respect, the President has said that we are fighting two wars, 
one overseas and one at home. And it seems that we ought to be 
able to find resources to do what is basic to the defense of 
our population.
    I want to talk about energy and infrastructure generally. 
Right now, based on the most current information that we have, 
America's energy resources, our computer networks with our 
financial system, and our transportation systems are not where 
they ought to be. It will take a good deal of Federal 
intervention and a private-public sector partnership to get it 
done.
    We have recommended how to get it done. We hope that people 
take that seriously because you could do enormous damage to 
this country by shutting down our ports, our energy supply, our 
banking system, or our communications system. And all of that 
is vulnerable today. Although work is being done, in our 
opinion, it is not being done rapidly enough.
    The National Guard. The original Hart-Rudman report made 
the following conjecture: We talk about forward deployment in 
the cold war. We had troops and equipment forward-deployed all 
over the world. We have the best-trained, best-disciplined 
first responders forward-deployed all over America. They are 
the National Guard men and women, citizen soldiers, who have 
equipment, transportation, communications, and skills.
    Their primary mission is to aid the combat forces in time 
of war overseas. We believe they should have a dual mission, 
and we have got substantial agreement from many people on that 
subject. We believe they ought to have a mission of homeland 
security, with each unit trained in a different kind of 
discipline. That could be done in the next year.
    So if, in fact, we had another event, let's say in New 
England, let's say in the State of Connecticut, you have Guard 
from Maine, New Hampshire, Vermont, New York, Rhode Island and 
Connecticut who could converge on the scene and give the local 
responders the kind of help they need. Not to do that with that 
kind of a force in place is a terrible waste of resources. They 
train a great deal. Their training ought to concentrate for the 
next year on homeland security.
    Finally, the other point that I just want to make is that 
we cannot overlook--and I address this, I think, as much to 
Senator Hatch as anyone, soon to be the Chair of the full 
Committee. We have heard from many people in the private sector 
who really want to work more closely together in some of the 
infrastructure problems that we know exist and that are 
outlined in the report. They are worried about antitrust laws 
and they are worried about the Freedom of Information Act.
    They don't want their corporate secrets, if you will, which 
are legitimate, to be disclosed, if you will, because they are 
working with the Government in a public-private partnership. 
They don't want to be the subject of a public or private 
antitrust action because they are working with their biggest 
competitors to provide infrastructure protection. So I would 
commend to you that there are ways to fix that, and I would 
hope that the full Committee of the appropriate Subcommittee 
would look at that in the near future.
    Let me conclude by simply making two observations. No. 1, I 
have heard a great deal about prevention and a great deal about 
intelligence that, if it was only good enough, it could 
prevent. Well, it can prevent something, but it cannot prevent 
everything.
    Anyone who is familiar with U.S. intelligence or MI5 or MI6 
or the KGB and their whole history will know that they are very 
good at predicting force structure and general intentions and 
very poor at predicting with certainty what will happen where 
it will happen. If it were any better, we wouldn't have had the 
Battle of the Bulge, we wouldn't have had Kuwait, and we 
certainly wouldn't have had Pearl Harbor.
    So for those who want to put all of their eggs in the 
intelligence basket and figure that is going to fix it, 
frankly, to use an old Vermont expression, that is whistling in 
the cemetery. It just won't happen. I told a group the other 
day that in baseball if you bat .500, you are in the Hall of 
Fame. In intelligence, if you bat .750, you are a loser. And we 
are going to lose, so we have got to buildup the response side 
of this equation and understand that that is where it really 
counts.
    Finally, Madam Chairman and members of the Committee, I 
served in this place long enough to know that if you had an 
intelligence report that was absolutely certain that a city in 
the United States would be the target of a biologic attack on a 
certain date in February in the year 2003, I have no doubt 
whatsoever that the local community, the Governor of that 
State, that legislature, this Congress, and this President 
would do whatever it took to get ready for that. It would spend 
whatever money it took; it would do everything to protect this 
Nation's citizens. My question is a very simple one: Why do we 
have to wait for that to happen? And I hope we don't.
    Thank you.
    Chairperson Feinstein. Thank you very much, Senator, and 
thank you for your care, concern, and most particularly for 
your talent. We really appreciate it.
    Dr. Flynn.

 STATEMENT OF STEPHEN E. FLYNN, MEMBER, INDEPENDENT TERRORISM 
  TASK FORCE AND JEANE J. KIRKPATRICK SENIOR FELLOW, NATIONAL 
 SECURITY STUDIES, COUNCIL ON FOREIGN RELATIONS, NEW YORK, NEW 
                              YORK

    Mr. Flynn. Thank you, Madam Chairperson. It is a real honor 
to be here today, Senator Kyl, Chairman Leahy, soon to be 
Chairman Hatch, Senator DeWine, and Senator Schumer. I can't 
express our thanks enough for how quickly you assembled this 
hearing to respond to the report that I had the privilege to 
direct with this very distinguished group of Americans who 
served--of course, the Co-Chair, Senator Rudman, who is such an 
extraordinary American, and also with us today, Mr. Phil Odeen.
    Senator Rudman has touched upon many of the key findings of 
the report and I don't think I need to review them here for 
you, as I know you have looked through them. I just hope I can 
submit my written testimony for the record, and also if we 
might include the report itself, which is fairly brief, into 
the record.
    Chairperson Feinstein. If I may, would you go into your 
concept of the States' 24-hour-a-day centers and how you see 
those operating?
    Mr. Flynn. Absolutely. I just wanted to make a few opening 
statements and then I will speak directly to that.
    I just want to reiterate what Senator Rudman has said and, 
of course, what the President has said, that we are a nation at 
war and we need to fight this war both overseas and at home. 
Clearly, our task force believes that we need to be acting on a 
war-time footing here at home, and frankly our view is that we 
are not.
    In trying to assess where we are post-9/11, we obviously 
tried, as we reviewed here--and we do give enormous credit for 
the work that has been done by this body, by the President, and 
by Governors and mayors throughout this land. But we have to 
parallel our assessment about how much progress we make against 
the threat, and I would like to speak for just a moment about 
that threat.
    September 11th, if our adversaries didn't know it, taught 
them something, two key things: one, that we are open as a 
society and largely unprotected. But, second, they also 
indicated the enormous disruptive potential you get from 
engaging in catastrophic terrorism as a means of warfare.
    In my view, what we saw on September 11 is how warfare will 
be conducted against the United States for the foreseeable 
future. We must accept that. There is value to doing this 
because it is not just that we are such a target-rich society, 
but it is that when you engage in this form of warfare, we do 
unto ourselves a great deal of disruption. As long as that 
incentive persists and these vulnerabilities persist, I fear 
that we will continue to be targeted in this kind of way.
    The second issue we have to be cognizant of, of course, is 
that Al-Qaeda is back and up and running. We certainly have 
heard an ample amount news of this, of course, just in the 
headlines today. I know the Director of Intelligence, George 
Tenet, spoke before the Intelligence Committee not so long and 
stated that it is unambiguous as far as he is concerned. And I 
know everybody in this room knows that Directors of Central 
Intelligence rarely say things are unambiguous, and I think we 
need to take that very, very seriously.
    The third fact of our modern life right now that I think 
led our group to be concerned that we are at a time of 
especially great danger is the fact that we are poised clearly 
to go to war with Iraq. And the nature of this adversary should 
give us great pause because he is not going to accept a Swiss 
villa with a pension as an exit strategy. He does have access 
to weapons of mass destruction, and we don't know what kind 
entirely here, and he may well have good links to Al-Qaeda, 
which again is operational.
    The efforts we have made to date to improve our homeland 
security simply have not yet gathered enough traction. That is 
not a blame on anybody; it is just simply the reality. As 
Senator Rudman said, you can't turn a great nation of this size 
and complexity on a dime.
    We are in this tenuous window where, as we embark on that 
overseas effort, our homeland remains extremely exposed, and 
there may be some incentive for our adversary, again knowing 
the benefits one gets from this warfare, which is the mass 
disruption you achieve, to pursue this line of line of attack. 
So this should not be a nation that should be complacent. This 
is a nation that should be very focused on both the need to 
deal with terrorism overseas, but clearly to deal with our 
tremendous vulnerabilities here at home.
    Let me speak directly to this issue of local and State law 
enforcement--potentially 650,000 eyes and ears that routinely 
stop folks for speeding or pick up things along the course of 
doing their duties, as we expect them to do out in our 
communities, that give them pause. They do not know whether or 
not that hunch they may have is, in fact, something that should 
worry them because these folks are here intent to kill us in 
large numbers or topple critical parts of our infrastructure.
    There is no means for routinely accessing the intelligence 
data bases of just the watch lists. We are not talking about 
getting into the nitty-gritty of source or methods. We are 
talking about a red light/green light. Should I hold this guy 
until the feds want to come and pick him up or do I let him go 
with a traffic ticket and come back to court three from now, 
and so forth?
    They don't have that routine means. There is not an ability 
to punch, as they do into a local computer in the car, to say 
is this somebody I should hold? Now, there is a number that can 
be reached, but frankly if you call that number on a weekend, 
you are likely to get the INS up in Burlington, Vermont. Mr. 
Chairman, I am afraid you will probably get a voice mail.
    Chairman Leahy. No, you won't. In fact, in all likelihood--
and this has happened on days at three o'clock in the morning. 
I remember one time at three o'clock in the morning, on a 
Sunday morning when we had just had a 14-inch snowfall, they 
were there; they were answering the phone.
    Mr. Flynn. The real challenge is not to take on INS at all.
    Chairman Leahy. I just wanted you to know I was listening.
    [Laughter.]
    Mr. Flynn. Absolutely. They work well in Vermont in the 
snow.
    The reality is that we are not resourced to take a routine 
call, and patrolmen on the streets know that. And without the 
mechanics, basically, that knowledge that if I pick up a phone, 
I am going to get a voice who can give me a yes or no answer 
right away, that becomes collective knowledge out there and 
they don't act on that.
    So what we suggest is a 24-hour center each State 
maintains, and it may, in fact, parallel along the U.S. 
Attorneys' offices. Obviously, we need to make sure that we 
distribute the workload here, but basically a precinct has a 
hotline 24/7 to the key agencies that can tell them up, down, 
or indifferent here. It is the kind of thing we tried to put in 
the report here that we think can be done right away. It can be 
done with limited investment of resources.
    Another key point we have to say that we picked up from so 
many States and localities is they have to balance the budget 
at the end of the year and this has not been a great year for 
State revenues. And the fact of the matter is resources have 
got to come at the Federal level to make this stuff move 
forward if we are going to get it to happen in a hurry. That is 
a critical, I think, set of issues that we must address if we 
are going to deal with these gaping wounds.
    So I may conclude these opening comments by going back to 
the threat issue here. There is deterrent value in being able 
to maintain adequate homeland security. This isn't an act of 
fatalism focusing on these threats and vulnerabilities.
    The good news is many of the things we do to make our 
Nation more secure have also very positive things for lots of 
other public goods. The same kind of response capability you 
try to put together to deal with a catastrophic terrorist event 
helps you deal with a hurricane, helps you deal with an 
industrial accident of enormous magnitude.
    Our public health care system, we point out here, is 
broken. That is a problem because we face increasingly a world 
of global disease. We have to manage that. We have huge issues 
with regard to agricultural disease. It doesn't necessarily 
have to be malicious intent, but the issue of bioterrorism as 
directed in the agricultural sector is a huge set of 
challenges. We don't have a Centers for Disease Control 
equivalent in the agriculture sector. The result is we are apt 
to look like a bunch of keystone cops in coping with that kind 
of problem.
    These are the kinds of threats that are out there that 
transcend terrorism. The investment in some of these 
capabilities will make us a better Nation, we believe, overall 
in handling these. But most important, when our adversaries 
know that engaging in these horrific acts does not lead to any 
tangible impact on U.S. power, has no real disruptive impact--
they are just pariahs for being a mass murderer or vandal--our 
adversaries will reconsider this as a means of warfare.
    It is not to say there aren't evil people out there who 
will not do this, but as a means of warfare we can chip away at 
the incentive by not being such an inviting target. We must 
essentially work in parallel with our overseas efforts and our 
homeland security efforts if we are truly going to have a 
serious war on a terrorism.
    Thank you very much.
    [The prepared statement of Mr. Flynn appears as a 
submission for the record.]
    Chairperson Feinstein. Thanks very much, Dr. Flynn. I 
appreciate your comments.
    Mr. Odeen, welcome.

STATEMENT OF PHILIP A. ODEEN, CHAIRMAN, TRW, INC., AND MEMBER, 
     INDEPENDENT TERRORISM TASK FORCE, ARLINGTON, VIRGINIA

    Mr. Odeen. Well, thank you very much, Madam Chairperson and 
members of the Committee. I really want to compliment you on 
bringing this issue to the front because it requires attention 
and you have done a great thing here in greater attention for 
this problem.
    I want to thank the council also for sponsoring this 
effort. Senators Hart and Rudman did a terrific job and Steve 
Flynn did a great job in pulling together a good group and 
putting together a hard-hitting, focused, substantive report in 
a very, very brief period of time.
    As you know, the report covered a number of issues, and a 
lot of them have been discussed today so let me just take a few 
minutes and focus on two issues that I think are of particular 
importance. They are, first of all, the first responder issue, 
and, second, the National Guard.
    When we think of terrorism, we often think of the Federal 
agencies--the FBI, FEMA, the military, and so on. But in 
reality, the people who will make the biggest contribution in 
any terrorist event are, in fact, those on the local level that 
save lives and that help us recover from these events--the 
police, the fire, the emergency medical people, and so on.
    To a large degree, they are the ones who, if they perform 
well, the severity of the incident will be minimized and many, 
many lives will be saved. And yet they get relatively little 
attention in this overall issue. If we are going to 
successfully manage future threats, we simply have to invest, 
provide support, training and equipment for the first 
responders. Everybody recognizes this, and yet very little has 
happened.
    Let me just make a couple of comments on that. First, as 
Steve said, the timing is terrible. It comes at a time at which 
the States are facing very difficult budget problems. They are 
cutting out all kinds of critical functions--education, health 
care, and so on. And yet we are asking them to go back and find 
more money to invest in the first responders.
    In reality, this is not going to happen unless the Federal 
Government steps in because they are the one source of funds 
that we have at this point in time that can invest in these 
capabilities, and we need that kind of support and we need it 
very rapidly.
    Let me give you a couple of examples of the shortfalls. 
First of all, effective protective gear is absolutely critical 
in either a chemical or a biological attack, and yet very few 
States, cities or counties have this kind of equipment in any 
number at all. A recent survey of mayors said 86 percent of 
them said they were seriously short of the kind of gear they 
needed for a bioterrorism or chemical attack. Only 10 percent 
felt reasonably comfortable with the equipment they have today. 
And, again, given the fiscal situation, Federal funds are going 
to have to be made available if we are going to remedy this 
problem in any kind of short period of time.
    Second, robust, survivable communications are the most 
important infrastructure element for managing any kind of an 
attack. We found that out in spades in New York when the 
difficulty of communicating was brought out very clearly. State 
and local communications are stove-piped, they are vulnerable, 
and they are often very obsolete.
    Interconnectivity is critical if we are going to cope with 
a major, complicated incident such as the one we saw in New 
York a year ago. In response to that, a number of States have 
plans to significant upgrade their communications systems and 
build robust interconnected systems to cover the State, local 
and county officials.
    Yet, I think in almost every case these plans have been 
shelved because of the current crunch on cash, including New 
York State, which had a very major plan almost ready to roll 
out and has had to defer that. So we have a situation, because 
of lack of funds, where we are simply not making any serious 
investment in this kind of interconnected communications.
    I should point out, Senator DeWine, Ohio is one exception. 
You actually have a very robust system, but very few States 
have this.
    Second, the National Guard. The National Guard plays, as we 
have said, an absolutely critical role in all aspects of 
homeland security. They are trained, they are disciplined, they 
cover virtually every part of the United States. We have 5,500 
units scattered across all 50 States. They have equipment that 
is of great value in their normal course of events. They have 
got trucks, they have got aircraft, they have got 
communications, medical equipment, and this can be of 
extraordinary value in any kind of emergency such as this.
    And they play a unique role. Obviously, they report to the 
Governor, as well as to the U.S. military. They are always 
well-connected locally with local politicians and government 
officials, something that is not true if you bring in military 
units from the outside. Finally, they are exempt from the posse 
comitatus legislation, so they, in fact, can enforce civil law 
in crisis situations. So they do play a key role and will play 
a key role.
    About 4 years ago, the Defense Science Board did a major 
study on homeland security and one of our critical 
recommendations was to create civil support units in the 
National Guard to handle chemical, biological and radiological 
attacks. In response to that, we have now formed 22 of these, 
scattered across the country.
    This is an important step forward, but, in fact, we need 
far more. Our report suggests 66, which would give you one for 
every State, plus you would have 2 in larger, more populous 
States, Senator Feinstein, California being an obvious example 
where you would probably need several. So, again, we need to 
have more of these and we need to have them properly trained 
and equipped.
    If the Guard is going to be more effective more broadly in 
its role, it needs more funds and it needs more training and 
more focus. As Senator Rudman said, it needs a second priority 
mission, and that is homeland security.
    A few examples: We should be funding joint exercises with 
local agencies to ensure they are ready for a crisis. Only by 
doing this do you work out the kinks and the problems that 
always emerge when you get involved in a complex operation.
    They should be funded to carry out very aggressive ``train 
the trainer'' programs. We need training across all these first 
responders, and the best way to do it very rapidly is to use 
the Guard and to cascade that training down to localities 
across the country.
    Finally, because of the nature of the Guard, when they work 
for the Governor, they don't have job protection and their pay 
is often much less than it is if they are on normal military 
duty. These are things that should be remedied.
    Madam Chairperson, these are just a few thoughts, and again 
I want to thank you very much for holding this hearing and 
putting focus on this truly critical problem.
    [The prepared statement of Mr. Odeen appears as a 
submission for the record.]
    Chairperson Feinstein. Thanks very much, Mr. Odeen. We look 
forward to asking you some questions. Thank you.
    Colonel Larsen.

 STATEMENT OF RANDALL J. LARSEN, DIRECTOR, ANSER INSTITUTE FOR 
             HOMELAND SECURITY, ARLINGTON, VIRGINIA

    Mr. Larsen. Thank you, Madam Chairman and distinguished 
members, for inviting the Institute for Homeland Security to 
give an assessment of this report.
    In 1838, a young Abraham Lincoln commented, quote, ``All 
the armies of Europe, Asia, and Africa combined...with a 
Bonaparte for a commander, could not by force take a drink from 
the Ohio,or make a track on the Blue Ridge, in a trial of a 
thousand years,'' unquote. That is still true today, but it is 
irrelevant, and I am not sure we all quite appreciate that.
    It doesn't take a superpower to threaten a superpower. In 
fact, it doesn't even take a military force to threaten us 
anymore. Small nations, terrorist organizations, and even some 
transnational criminal organizations can threaten our homeland 
with weapons of incredible destructive and disruptive power.
    Most people in this room agree with that statement, so why 
should I state the obvious? But if we all really believed it, 
and if all the people in Washington, D.C., believe that, why 
don't we have a Department of Homeland Security today? Why are 
State and local law enforcement officers still operating in a 
virtual intelligence vacuum? Why is it that the most dependable 
way to deliver a nuclear weapon to the United States is to rent 
a shipping container for $1,500 in a Third World nation? And 
why is it we are so unprepared for a biological attack?
    In September of last year, Vice President Cheney asked me, 
what does a biological weapon look like? And I reached in my 
pocket and I pulled this out and I said, sir, it looks like 
this, and I did just carry this into your office. Now, this is 
not harmful, but it is weaponized Bacillus globigii. 
Genetically, it is nearly identical to Bacillus anthracis which 
causes anthrax, and we know what it did to the Hart Building 
last year.
    This was produced with equipment bought off the Internet 
for under a quarter of a million dollars. This is a weapon of 
mass destruction that you don't have to be a superpower to get. 
I don't worry about a Timothy McVeigh doing this, but I 
certainly worry about Al-Qaeda doing that, and we are not 
prepared.
    It is a weapon that can be used to frighten us, to disrupt 
us, like we saw with the Hart Building last year and the 
letters that came in here. Or potentially, with a sophisticated 
weapon and a contagious pathogen, it could threaten our 
survival.
    These are the types of issues raised by this distinguished 
and independent task force. We at the institute agree with the 
vast majority of their findings. Most importantly, we agree 
with the President that we need the creation of the Department 
of Homeland Security. Five of the six critical mandates 
identified by Senator Hart and Senator Rudman in this report 
can best be resolved through the leadership of a Secretary of 
Homeland Security and the coordination of their staff.
    While we agree that additional funding will likely be 
required for the National Guard, we are not ready to endorse 
the report's six major recommendations concerning roles and 
missions of the National Guard. These citizen soldiers are 
already stretched thin in preparing and executing a wide 
variety of missions.
    We are gratified, but not surprised, that the Guard and 
Reserves continue to answer ``can do'' when additional homeland 
security missions are identified. But we are concerned that we 
are abusing their patriotism. Simply put, we are not convinced 
that the National Guard, as currently organized, trained and 
equipped, can meet the dual demands of preparing to support the 
Department of Defense in fighting major-theater wars and at the 
same time be fully prepared to support Governors in a homeland 
security role.
    We realize that sometimes recommending a commission to 
study an issue merely kicks the can down the road. However, in 
this case the fundamental changes that may be required for the 
National Guard are so significant that a fresh look by an 
independent commission focused specifically on this subject is 
required.
    I want to mention briefly three--and I will add a fourth 
additional point to respond to Senator Feinstein's request 
about a command center because I recently visited a great one--
additional items.
    First, the importance of improving America's preparedness 
for a bioattack is mentioned in the report. Dr. Flynn just 
mentioned it. We cannot over-emphasize the importance of 
rebuilding America's public health infrastructure.
    Forty years ago, we had a world-class public health 
infrastructure in this country. I am not from the public health 
community--32 years in the military--but today I understand 
that public health is as important to national security as the 
Department of Defense, and I am very concerned with the state 
of our State and county and city public health offices.
    Second, considerable funds are being spent on training 
first responders. We fully support that at the institute. 
However, we are not spending any money on executive education 
in all the exercises we have run, from Dark Winter to Crimson 
Sky, where Senator Roberts played the President of the United 
States and we simulated for the Secretary of Agriculture a foot 
and mouth disease attack on the United States.
    The people who make the important decisions in these 
scenarios and in the real world are not firefighters and police 
officers. They are senior elected and appointed officials. Who 
is educating them? It is all on-the-job training. We have to 
have a program.
    It is like 1950 again. We haven't created the academic 
discipline of national security. That wasn't created until Dr. 
Kissinger and others and great schools came along. We don't 
have that system today. We think this is a serious deficiency. 
Executive education will be the cornerstone of a successful 
homeland security program.
    Third, we must understand that homeland security requires a 
long-term commitment. We had Nunn-Lugar-Domenici, 120 cities. 
You mentioned 120 cities. That was a one-time effort. We go out 
and train these people, but what is the follow-on program? In 
the military, we understand continuation training. These skills 
go away if you don't continue the training program. So when you 
make a commitment to these programs, it needs to be long-term.
    And I add a fourth point, Madam Chairman, because you asked 
about this 24-hour operations center. One of the things we 
really push at the institute is finding a good example 
somewhere and spreading that word around. We don't need to 
reinvent the wheel in 50 States.
    The State of Iowa has done an incredible system. For 16 
years, they have been building their command and control 
system. I visited it recently. To me, it is more exotic than 
strategic command out at Moffett Air Force Base. It is 
certainly more modern. They have 368 connections with video 
teleconferencing throughout the State, and I mean it is a 
quality of like the ``CBS Evening News.'' It is not some fuzzy 
screen--every hospital, private and public, every county seat, 
every police department, sheriff's department.
    The first time they ever had all 368 hooked up was last 
October at the height of the anthrax scare. They brought in 
some very senior officials and got all of them up there and 
said, this is what an anthrax attack will look like, this is 
the first thing you are going to see and here is the State plan 
to respond. If you want to see a good example of what that 24-
hour command center looks like, go to Iowa.
    To conclude, I concur with a majority of the 
recommendations in the report. If I had to pick one critical 
concern, it would be lack of preparation for biological 
attacks. If I had to pick one thing to add, it would be the 
need for executive education. If I had to pick one caution, it 
would be the importance of program sustainability. If I had to 
pick one key action, it would be establishing a Department of 
Homeland Security, with one person given the authority and 
resources to make decisions and to hold responsible. If I had 
to pick one issue not adequately addressed in the report or the 
proposed department or in my remarks, it would be the fusion of 
intelligence. That will be a tough nut to crack, but one we can 
do.
    And one last comment. I know we were talking today about 
how we get that information down to one of those 650,000 police 
officers on the street. In a recent visit to the New York City 
Police Department, I was told about a program called Advanced 
Tipoffs. Everything is there they need to make it happen, 
except the money.
    It is when a police officer pulls you over and goes into 
the National Crime Information Center, Advanced Tipoffs will 
link them to 17 terrorist watch lists. It won't allow you to 
look in there and see exactly what they want them for, but it 
will pop that flag up. And that is available today if we have 
the money to fund it and move forward.
    I can tell you, talking to police officers on the street in 
New York City, they would really like to have it. Had we had 
that system in July of 2001, Mohamed Atta would probably not 
have been let go by that State trooper in Florida.
    Thank you for the time to make my comments, Madam Chair. I 
will be happy to answer your questions.
    [The prepared statement of Mr. Larsen appears as a 
submission for the record.]
    Chairperson Feinstein. Thank you very much, all four of 
you. I think the testimony was excellent and we are very 
appreciative.
    Let me just begin with the subject of the National Guard. 
We drafted legislation, oh, I guess about a year ago to carry 
this out, and later my staff went to Senator Lieberman and 
Senator Thompson, to the Government Affairs Committee. They 
wanted Armed Services staff; to look at it. We could not get 
any interest in it by Armed Services staff.
    I have it here. We can certainly beef it up a little bit. I 
think there is going to have to be some additional work by you 
gentlemen and by others on the issue of first responders. The 
Guard is already trained and Guard units could receive 
additional first responder training. Given the fact that we 
really have no adequate defense today against a biological, a 
chemical, or a radioactive attack, to me, the National Guard is 
the natural one to respond.
    So I am trying to inveigle Senator Kyl to get involved in 
this, and Senator DeWine, and maybe we will try again next 
year. But clearly we are not going to be able to do it unless a 
group of experts come together and join us in saying that this 
is really the right thing to do, and I hope you will.
    My question of any who would like to answer this is how do 
you see the concept of the 24-hour command centers meshing with 
tipoff type databases--what is your vision? Should we introduce 
legislation whereby the Federal Government would offer a match 
to State government to establish such centers? Would Governors 
do a plan? How do you see this being carried out?
    Senator Rudman. Let me respond first because I have given 
this a great deal of thought during the pendency of this report 
and since it has come out. You know, you can learn from 
history, and I am sure you are both familiar--your staffs are 
too young to remember, but you will remember that in the--
maybe, Senator Feinstein, you are too young to remember.
    Chairperson Feinstein. That was an after-thought, but I 
appreciate it anyway.
    [Laughter.]
    Senator Rudman. As I recall, back in the 1970's, under 
President Nixon, we established something called the Law 
Enforcement Assistance Administration, the LEAA, and it had 
some high moments and some bad moments. There was some 
corruption, but overall it did a lot of wonderful work.
    Here is what it did: The Congress appropriated ``x'' number 
of dollars to that administration. Each of the States set up a 
commission to essentially have liaison and links with the LEAA. 
Each State made proposals to enhance its criminal justice 
system. Those were evaluated and money was allocated to the 
States on a formula basis to assure that they could do what 
they had to do.
    For instance, in the State of New Hampshire two things were 
done. I was attorney general at the time and I sat on the group 
that had liaison. What we did with it was build at the time one 
of the finest communications systems in the country, linking 
our local, county and State police forces. We also used a great 
deal of the money in the courts, which we were allowed to do.
    I would submit to you that there is a plan that might work, 
and probably the place it would go would be the Department of 
Homeland Security, and maybe FEMA in particular, a program of 
funding a number of objectives through overwhelming Federal 
money, with some State match to ensure that it got done and got 
done promptly.
    I think that is a very good system. It worked very well. 
Now, there were some abuses in some States, but most people 
whom you talk to will tell you the LEAA did a great deal of 
good work in their States. I would say that is a good model.
    Chairperson Feinstein. Thank you very much.
    Anyone else on this?
    Mr. Larsen. I will say, Madam Chairman, that the Iowa 
system was built exclusively with State funds, something they 
are very proud of. Of course, that was built in a period of 
time when they had a little bit more money out there, like many 
other States.
    But we agree with matching funds, and national standards, 
we think, are one of the most important things that we have. 
They would be interoperable, particularly when we are talking 
about contagious pathogens. You know, most Governors and 
adjutants general we talk to say disaster are local. We agree 
with that when you are talking about tornadoes and hurricanes 
and earthquakes. If you are talking about a contagious pathogen 
or perhaps a radiological dispersal device, it is a regional 
issue. So I think it is very important that there be national 
standards and the regional centers are linked.
    Chairperson Feinstein. So you are saying set that in the 
legislation, the standards?
    Mr. Larsen. Absolutely. Of course, the States would love it 
if they sent all the money, but we think the matching funds are 
very important. But the national standards perhaps are the best 
thing that we can get out of the new department. They have to 
be interoperable.
    Talking to Governor Keating recently, he was talking about 
his State police went out and bought new radios. They don't 
talk to the Texas State Police. We have got to get past that. 
These are going to be regional issues. NYPD and the State of 
New York are working with Connecticut and New Jersey. They have 
a regional intelligence center up there now where police 
reports that come in from New Jersey--people are seeing those 
in police departments in Connecticut, too. This regional thing 
we are also seeing in public health, so we think that is the 
positive direction they are going.
    Chairperson Feinstein. Dr. Flynn or Mr. Odeen?
    Mr. Flynn. I would just say that my vote is money has to 
vote quickly and I think the Federal Government has the means 
to turn on the spigot. We are a wealthy nation, we are a nation 
at war, and the State and localities are simply just being able 
to move in a kind of timely fashion.
    The American people were forgiving of their Government 
after 9/11. I think they are going to be unforgiving post the 
next traumatic event because they are going to wonder what the 
heck did you do with the time that was available, when we still 
have virtually no major police department in this country that 
can talk to its own fire department, never mind county 
emergency planners or State police or Federal officials.
    I was just in Houston just this past week talking with 
people from the mayors and at every Federal level. The Federal 
agency folks--INS, Coast Guard, Customs, and so forth--can't 
talk with their State counterparts. They can barely talk with 
each other. I mean, this just unsatisfactory. We have just got 
to move money. This is a nation at war.
    Senator Rudman. Could I add just one point to that?
    Chairperson Feinstein. Please.
    Senator Rudman. If you add up the amount of money that 
would be needed to get the first responders the proper chemical 
and biological equipment across this country, and add to that 
the communications we are talking about--if you add it all up, 
in terms of the kind of money that we appropriate every year it 
is not a great deal of money. And I would think those are two 
very high priorities, because if you don't have the equipment 
and you can't communicate, you are going to have a disaster.
    Chairperson Feinstein. Would this panel be willing to 
prepare a draft of national standards, since you have all 
studied this issue?
    Senator Rudman. I think we probably could. If you would 
like us to, I am sure that we have the resources. Certainly, if 
you would like some assistance and for us to give you some 
recommendations, I am sure we could.
    Chairperson Feinstein. Good.
    Senator Rudman. I can't speak for the Colonel.
    Mr. Larsen. Absolutely. The institute is for public service 
and if that is what you ask for, that is what we will provide.
    Senator Rudman. I think we can work together and give you 
that, but it is not only standards for the centers, but 
standards for the kind of equipment that is needed and the kind 
of communications gear, and we have enough expertise to do 
that.
    Chairperson Feinstein. Excellent.
    Senator Kyl.
    Senator Kyl. Thank you all for your testimony. It is 
enlightening and it takes me back to two very general themes.
    One of the themes, Dr. Flynn, is in your testimony you said 
something that I hope is not true. I have been saying it isn't 
true, but I am not positive. You say we seem to be slipping 
back to complacency. I have been impressed with the fact that 
over a year now the Nation still seems to be pretty focused and 
willing to support what the Government has asked be done.
    You haven't seen the same kind of impatience that 
ordinarily characterizes Americans. With whatever we do, we 
want to get it over with right now. The President said in the 
beginning this is going to require a lot of patience, and I 
have seen a lot of patience on the part of the American people. 
So it bothers me to have you say you are beginning to see 
evidence of slipping into complacency, and I would like to have 
you talk a little bit more about that because we can't let that 
happen, and danger signs that you have observed I would like to 
be able to focus on.
    I guess, by the way, you could first point to the United 
States Congress' inability to pass a Homeland Security 
Department bill within a timeframe that the President has 
recommended and which some of you have commented on. I mean, I 
suppose that is Exhibit A right there, and we are supposed to 
represent all of the people.
    The second question, though--and this is the one that has 
always troubled me, and in every hearing we have had this is 
the question I get to. It is impossible in the United States of 
America--in fact, probably the only country you could do this 
with is North Korea, to really protect against any outside 
influences. I mean, we are such an open and dynamic country 
that it is literally impossible to protect against any threat.
    Now, what terrorists do is to probe for vulnerabilities, 
and there are millions of vulnerabilities in this country. So 
then they set up a series of priorities of what is not only 
vulnerable, but they would get the most bang for the buck in 
terms of real terror out of what they do, and so on. And then 
they figure out what their target is.
    We have to, on the other side, try to imagine what they 
might try to do first, second, third, and protect against those 
particular vulnerabilities. It is a cat-and-mouse game that to 
me is almost impossible for the defense to ever win, which is, 
of course, why the President has said--and I suspect all of you 
agree--you have got to take the fight to the enemy.
    But that is another matter. That is not what you are 
focused on doing, and I understand that. You are focused on the 
hard stuff, which is, all right, after they have taken the 
fight to the enemy, what do we still have to do to protect the 
homeland. But it gets to this question of setting priorities.
    Now, Senator Rudman, you said, relatively speaking, it 
wouldn't be that much money to provide the equipment that would 
be necessary to protect against what Colonel Larsen says is 
probably the most worrisome thing to him, and that is the 
biological threat. And we both naturally say, well, how much 
would it cost exactly? Who all would have to be furnished the 
gear? What are the standards, as Senator Feinstein asks, and so 
on? And that is important information for us to get.
    All of this is a long way of asking a question not with 
respect to every specific kind of threat, but rather in a more 
general way, how do we set the priorities for what we have to 
do first, second, and third. Do you base it on what our last 
best intelligence tells us is being probed by the enemy? I 
mean, is that how you do it?
    That is kind of tactical because you get different reports 
every month. Well, now, we see them casing petroleum refineries 
or we see them casing this or that or the other thing. You 
can't possibly protect against everything.
    And let me just add a final thought to that. One of you 
again--I think, Dr. Flynn, in your testimony you talk about the 
airport security. And, Senator Rudman, you said the same thing. 
We are focused kind of on the wrong thing. We fight the last 
war. Well, we are fighting airport security, but that may well 
not be where the terrorists are focused now. Excellent point. 
And, Dr. Flynn, you said monitoring based upon risk criteria. 
Is that really the risk now, passengers going through being 
screened?
    I guess that is my question, and maybe the answer is we 
don't know. That is why we need to appoint some experts to try 
to do that. But is it intelligence-driven, I guess is part of 
my question.
    Senator Rudman. Let me just take a quick review of that 
because, you know, we talked a great deal about the very 
question you raise. If you look at these six recommendations, 
they are broad recommendations which are designed to prepare 
local responders, States and localities, with the ability to 
respond to multiple threats.
    If there is a terrorist attack, it will either be high 
explosives, as we have seen in Israel, Northern Ireland and 
other places in the world, or--and I say this with great 
reluctance, but it has to be said--chemical, biological, or 
nuclear.
    So if you look at our report, we are saying here are six 
things that are on the response prevention side; that since we 
can't tell you where, when, what, how, here are some things you 
ought to do that, no matter what happens, you will be better 
off than you were yesterday.
    Senator Kyl. Dealing with it.
    Chairperson Feinstein. Yes.
    Mr. Flynn. Let me add that part of that, though, has 
deterrent value again. If the sense is that the Nation is going 
to capably respond to these incidents, then the value you 
expect to get fundamentally impacting on U.S. power is 
mitigated. So at least some of our adversaries might reconsider 
this, again, as a means of warfare.
    But getting at this issue of how much security is enough 
and where do we get it, why I focus so heavily on the issue of 
ports and containers is going back to what happened on 
September 11. We had two airplanes from Massachusetts fly into 
New York City, and obviously one ended up in Washington. But we 
responded by grounding all aviation, closing our seaports, and 
effectively sealing our borders with Canada and with Mexico.
    We did what no nation could expect to accomplish against a 
superpower; we imposed an economic blockade on our own economy. 
That was what an adversary would look to accomplish. Why did we 
have to do that? Because we had no means to filter the bad from 
the good in that heightened threat environment. We had to stop 
the world to sort it out.
    Now, with planes, it took us 3 days to go through every 
single plane to verify there were no more terrorists or means 
of terrorism on them. And yet, on our seaports and borders we 
opened it back up, not because the threat went away or because 
we were more secure, but because we did the arithmetic that it 
was too costly to keep it closed, so a sufficient security 
largely that when you have an incident, you can contain the 
incident.
    A single container today used in a horrific act of terror--
it is different from an industrial accident. If you had an 
industrial accident with a single refinery, you would say that 
is an isolated event. If you had it in a container which is so 
ubiquitous it moves 90 percent of all general cargo--6.5 
million by sea, 11.5 trucks carry them across our land borders, 
2.2 million by rail--and you say, wait a second, what is the 
baseline security that means another one of these isn't going 
to go up, the answer right now there is no standard for who 
gets to load what into them. There is no standard with regard 
to security on who gets to carry them.
    If we even had hard intelligence that one is being used, 
that we had human intelligence that told us part of the Al-
Qaeda network just loaded a weapon of mass destruction in this 
container and it is left on a lorry heading down the street, 
and the President convened his national security team and said 
where is the box, the response right now would likely be it 
could be coming into Vancouver or Seattle or Tacoma or L.A. or 
Long Beach or Oakland-San Francisco, coming through the canal 
or any one of our ports.
    The only tool again would be to turn off the system to sort 
it out. So a sufficient security that when you have an 
incident--one is there is a credible baseline that people can 
look to and say, all right, you are managing this, you are not 
just giving away this core public good, safety and security, 
for the benefits that the system provides.
    Second, you need the ability to do forensics after the 
fact. Is this just one event? You know, if we could identify it 
came from Karachi, we probably wouldn't have to close the 
Ambassador Bridge for incoming GM parts coming from Ontario. 
But if we don't know, we are apt to have to do that for an 
extended period of time.
    So what the people who have built us this intermodal 
revolution will tell you is they gave us a low-cost, efficient, 
reliable system that allows us to move around the planet at 
incredible economic benefit to this country, but we never put 
security into the system. It was presumed to raise costs, 
undermine efficiency, and undermine reliability.
    So we are in a world with increasingly integrated, 
sophisticated, concentrated networks where no security is put 
in, and what we now must be in the business of doing is 
retrofitting it in. The good news is they are also dynamic 
systems and they provide an opportunity for us to put security 
in at the outset. Just like we built safety into the aviation 
industry and safety in the chemical industry, we just now must 
build security into these same industries.
    Senator Rudman. I would want to add on that point that 
Commissioner Bonner deserves a great deal of credit for his 
recent initiatives. Some of them are very controversial. Some 
of them came from the original Hart-Rudman report. Frankly, 
Commander Flynn drafted that section to start doing more of the 
inspection not at the point of debarkation, but the point of 
embarkation, to put Customs people overseas so we start to find 
out who is loading these containers.
    There has been a great hue and cry from some of our trading 
partners that it is going to slow up commerce, but I must say 
that the Commissioner, whom I have talked to on a number of 
occasions and looked at what they are doing--they are starting 
to try to do this, but this is a very daunting task. It will 
not happen overnight.
    Mr. Larsen. Senator Kyl, I agree with what Dr. Flynn has to 
say about a delivery system of ports. But if we made all of 
those containers completely secure, I can still come in the 
country, walk across the border, drive across the border, or 
fly in with this.
    At the institute, the model that we look at is where do we 
spend our money. We can't protect everything. What threatens us 
the most? I remember Governor Gilmore and his initial 
commission sort of looked at the high-probability/low-
consequence car bombs. The first Hart-Rudman report, I think, 
was more focused on the low-probability/high-consequence, and I 
think that is where we have to spend our limited national 
resources, is those things that can threaten our survival.
    Even when you look at 9/11, a terrible tragedy for the 
families, the friends, 3,000 people died. In 2001, 6,000 people 
died of food poisoning in this country. 7,800 people died 
because they didn't take proper precautions in the sunlight and 
they got skin cancer. So we can't defend against everything, 
but those things that can threaten the survival of our Nation, 
threaten our economy--we saw in the Dark Winter exercise 2,000 
people died in the 22 days of that exercise. Senator Nunn 
played the President.
    Chairperson Feinstein. Was that the smallpox one?
    Mr. Larsen. That was smallpox. Jim Woolsey played the CIA 
Director, Bill Sessions the FBI Director, a very distinguished 
panel. And it was so different. We had some of the greatest 
national security leaders sitting around that table and they 
said they didn't know what questions to ask.
    It is so much different than a bomb coming in in a shipping 
container or an airplane crashing into a building. This is 
someone bringing an epidemic to America, and the people that 
respond are those public health officers. I just returned from 
3 days in Philadelphia with the 103d conference of the American 
Public Health Association.
    I have a minor mistake I would like to correct in my 
statement that I submitted where I said it was funded, this 
report I saw, by the Centers for Disease Control. People from 
the Centers for Disease Control participated, but it was 
actually funded by the Department of Justice.
    They went out and looked at 2,200 city and county public 
health offices and they gave them grades like a university; 100 
to 90 is an A, 89 to 80 is a B. Seventy-four percent of them 
flunked being prepared under 20 criteria they established for 
responding to a biological attack. These are your front-line 
troops now, OK? Seventy-four percent of this Nation's city and 
county public health officers are not prepared to respond. To 
me, that is a threat to national security, a serious threat, 
and that is where we have to focus our attention.
    Chairperson Feinstein. Thank you.
    Senator DeWine.
    Senator DeWine. Thank you, Madam Chairman. This has been 
very interesting, very good testimony.
    I would like to turn back, if I could, to the issue of the 
National Guard. The National Guard certainly is a great 
resource and it is a resource that we need to better utilize in 
regard to preparing and then responding to this war on 
terrorism. I don't think anybody doubts that. But there is a 
question of if they are doing that, what are they not doing? 
And I think the Colonel raised that issue.
    We currently in Ohio have members of the National Guard in 
northwest Ohio helping clean up and deal with the aftermath of 
a number of very deadly tornadoes. I am sure that every State 
that got hit has Guardsmen doing that. When we have floods on 
the Ohio River, our members of the National Guard are down 
there. And I have been down there with them, and I am sure that 
Senator Rudman has been with his Guard as well in different 
tragedies. We currently in Ohio have members of the National 
Guard in the Middle East and in Bosnia.
    So I would like maybe if we could have a little more 
discussion, and maybe start with Senator Rudman, about if they 
are doing this, Senator, and they have this new dual 
responsibility, how do we in a sense pay for it, not just with 
dollars, but within the question of their time and their 
resources?
    Senator Rudman. Senator DeWine, let me say that I don't 
disagree with the predicate of your question, or for that 
matter with Colonel Larsen's concern. But let me simply lay out 
the way we looked at it and try to answer your question 
specifically.
    The Guard people that I know are very proud of their combat 
mission. Factually, in the world we live in today, that combat 
mission is probably not apt to be called on in the foreseeable. 
That is not what we are facing. Certainly, they were called up 
for Desert Storm and they could get called up for a war in 
Iraq, but the call-ups are relatively few and far between, for 
which we are all thankful.
    Meanwhile, they train for that mission. No matter what 
their unit is--artillery, military intelligence, hospital, 
military government--they train for that mission. All we are 
saying is they should get some dual training, and that dual 
training should be provided by skilled people provided by the 
Pentagon and by other Federal agencies to train them in some 
other skills that they have equipment and general training and 
discipline to deal with.
    Now, how do you pay for that? Frankly, I think you have to 
pay for it with increased appropriations for the Guard because 
they are our greatest human resource right now, other than the 
650,000 first responders, that we have, and they are located in 
all the right places.
    I want to say just one other thing. I have talked to a 
number of Guard people around the country and they came up with 
something that I never even thought of, nor did our commission 
think of. They believe it will be a boon to recruiting, and the 
reason they believe it will be a boon to recruiting is because 
a lot of young people today--and I have talked to many; I 
talked to many in your State on Tuesday night at a wonderful 
college outside of Cleveland.
    And it is interesting in talking to young, college-age 
students that they all, no matter what they say, usually have 
one question in common: ``What can I do to help? I mean, I feel 
so helpless. The President says we are all in this war 
together. OK, so what would you like me to do?'' And, of 
course, nobody has an answer.
    Many Guard people have told me that they believe it will 
aid in recruiting, and maybe we have to expand Guard units in 
some places. I don't disagree that they are right now probably 
overworked in many ways, but we are facing a major crisis in 
this country. It would be a terrible thing if we had a major 
incident of a weapon of mass destruction in a Midwestern State 
and there were 100 Guard units within 50 miles of that location 
who unfortunately weren't trained to do anything that could be 
helpful. That is our point, although we certainly agree with 
Colonel Larsen and with you that there are issues here. But we 
think the overriding issue is homeland security.
    Senator DeWine. Well, I appreciate your response. It seems 
to me as we look at this whole matrix of how we put this 
together, we clearly do need a cadre of people with very 
specific expertise who can move in a general geographical area. 
You probably can't afford to have those people in every 
community, but you need to be able to surge them into that area 
within a short period of time, and I think, Senator, your point 
is very well taken.
    Our Guard in Ohio and every other State is set up to surge 
very quickly. You know, they are set up to go to the Ohio River 
very quickly. They are set up to go to Van Wert, Ohio, very 
quickly if they have to go to Van Wert, Ohio.
    Colonel?
    Mr. Larsen. Go right ahead. Go ahead.
    Mr. Odeen. I think this has been a difficult issue for the 
Army and the Guard for a number of years, but I think it is 
changing. For a long time, as Warren said, they saw their 
combat mission as the critical thing they were doing, but that 
is really not true anymore.
    We have transformed the active-duty military; we are in the 
process of transforming it. Heavy armored divisions and things 
like that just simply have a lot less of a role these days. The 
Guard and the Reserve that are actively involved with the Army 
day in and day out are not the guys driving tanks. They are 
people with medical, civil affairs, military police, these 
kinds of skills that are extraordinarily valuable in 
Afghanistan and Bosnia and places like this, but they are a 
relatively small part of the organization.
    Doing this well, I don't believe, is a significant 
diversion of their capabilities. To have 66 or 70 or 80 of 
these weapons of mass destruction response teams, we are 
talking about a few thousand people. The numbers are small and 
you can make those available.
    The other good thing about it is many of the units we have 
in the Guard today have equipment that is absolutely perfectly 
designed for responding to these things, but they have to have 
training and they have to have people that know how to 
coordinate and manage these things. But the trucks and the 
cargo aircraft they have and the engineering equipment is very 
useful and very relevant, but it takes planning, it takes 
training, it takes coordination.
    This is not, I don't believe, a significant diversion of 
the capabilities of the National Guard. As Warren said, I think 
they will respond, and respond positively, and I believe it 
will be very good for their support in their communities, as 
well, knowing they have this capability.
    Senator DeWine. Colonel?
    Mr. Larsen. My staff and I thought very carefully as we 
worded this to say that this was one area that we weren't ready 
to endorse from the Committee, but it didn't say we disagreed 
with it. We think it is more complex when you think about it. 
They are front-line troops and I am worried about abusing them.
    In my last command as a military officer, I had 1,000 
people working for me. I had a specific mission to do. We were 
organized, trained, and equipped for that mission, and that was 
what we focused our time on. So now I am a commander of a 
National Guard unit and I have 1,000 people. I am organized, 
trained, and equipped to go fight a war in southwest Asia. I 
have 2 weeks in the summer and 1 weekend a month, and it is 
very, very difficult to be prepared for that.
    And now you are going to give me another mission. Well, we 
have some of the skills and the training and some of the 
discipline or whatever, but it is a different mission. And I 
think that maybe--and this is why we need to look at this--we 
may want to have more of a commitment to where that National 
Guard is organized, trained, and equipped to help that Governor 
in what he needs.
    Madam Chairman, if you were the Governor of California, 
what would you want to have, F-16s and M-1 tanks in your Guard 
unit, or would you rather have transportation, medical units, 
communications, and military police? I know which one I would 
want. So I think it just needs to be looked at.
    In the Top-Off exercise in Denver, in May of 2000, they 
simulated a plague attack. The Federal Government did their 
job. That push-pack, 94,400 pounds of antibiotics, arrived on 
that 747 freighter. The Federal Government said, we have done 
our job, Denver, and now you have 48 hours to get 2 million 
people little bags of antibiotics to protect them from plague.
    So I don't need 19-year-old kids that can do a hundred 
push-ups and fire expert with an M-16. My 77-year-old mother 
could have helped do that. That is why I think if we had this 
sort of commission to look at this, volunteers would be a great 
help to us. We don't have to pay for the National Guard.
    Organizations like the Rotary Club--and I am not a 
Rotarian, but I think they do wonderful work around the world 
in public health areas. Volunteer organizations in this country 
could do a lot of the things we need for critical responses.
    There are certain things we could get from DoD and from the 
National Guard. I think we need to sit down and look at it 
seriously. I don't think the changes we need to make are on the 
margin. I think we are looking at some fundamental changes in 
the 21st century.
    Mr. Flynn. If I might just add one more, which is former 
Secretary of State Warren Christopher participated in our 
panel, as well, and he pointed out, of course, a situation we 
are worried about and was part of our matrix in looking at this 
issue.
    You recall the riots of the late 1960's where we draw on 
the National Guard to do it and they just simply weren't 
trained to cope in that kind of circumstance. It was not the 
kind of situation we want the National Guard in. The President 
has asked every single Governor to develop a homeland security 
plan for his State. Every single Governor is planning on 
drawing on his National Guard capability to respond to the 
contingencies that are developing. We don't want the National 
Guard to show up and not be able to deliver when we have these 
events. That is the reality we are in right now and we have to 
find some ways to work through this.
    I certainly agree that I think this is really an issue that 
probably needs the commission. Give it a very short time fuse 
to really lay out the issues, but a mandate that we address 
this squarely is so essential.
    Mr. Larsen. Just one last comment, ma'am. When is the most 
likely time we are going to have a major attack on our 
homeland? Probably when we are at war somewhere else. How many 
of those National Guard troops are really going to be 
available?
    I talked to some folks about a year ago from the Rhode 
Island National Guard. They were special forces units. We 
really need those in this war that has been going on in 
Afghanistan. They were deploying to Afghanistan. Now, the 
Governor of Rhode Island is sitting there thinking ``I am going 
to use the National Guard if we have a big crisis.'' Sorry, 
they are in Afghanistan.
    Senator Rudman. I would just make one observation to 
disagree with that particular comment. I have looked at the 
identification and mission and training of most of the Guard 
units in the country back during Hart-Rudman. I would agree 
with Colonel Larsen that those units which are armor, heavy 
infantry, mechanized infantry, airborne, special forces--
probably, you might give them some dual training.
    I am talking about the majority of those Guard units which 
are transportation, communications, military government, 
military police, military intelligence. There are a lot of 
units which do not have what I call primary combat missions. I 
think that obviously some of these units probably will not get 
into this matrix, but I believe that you can distinguish 
between the two.
    Chairperson Feinstein. And if I may for a moment, you can 
do double training for some troops. The people who are trained 
in the heavy mechanized and the special forces would stay with 
that. For others, you would add a homeland security mission.
    My belief is that the opposition to this comes from the 
Pentagon and they don't want the mixed mission, so to speak. 
And yet the Guard already has such a mission. As Mr. Odeen 
pointed out in his remarks, 22 civil support teams trained to 
respond to a weapon of mass destruction, and this number is 
going to grow.
    Mr. Odeen. I hope so, yes, absolutely.
    Chairperson Feinstein. So I think it would be possible to 
enhance the Guards homeland security mission if we wanted to do 
it.
    Senator DeWine. Well, it certainly is a very interesting 
question. My time is up, but I think the discussion we got from 
the panel was a very excellent one.
    Thank you, Madam Chairman.
    Senator Kyl. Just on that point, I would note that some of 
the very first units called were the very units that Senator 
Rudman was talking about--the police, the communications. In 
Bosnia and in Kosovo, it was not the heavy mechanized. It was 
exactly the kind units that might receive this kind of 
training.
    And, yes, you are right. It is the military that objects. 
They got whipsawed back about 12 years ago when I was on the 
House Armed Services Committee. The big decision was made that 
we would have folks back home who, when the whistle blew, could 
go into combat. That way, we didn't need as many active units. 
And so that is the direction we went.
    Now that the whistle has blown and some of them have had to 
go, we have all kinds objections from employers, from families, 
from Governors who say, wait a minute, we want this help back 
home. There is always a tug and a pull, which is why we are 
going to need to continue to talk to you folks and think this 
thing through and get your recommendations because there is 
just no simple answer, obviously.
    Chairperson Feinstein. We structured our amendment to the 
homeland security legislation, which hopefully will become a 
bill in the next Congress, after the counter-drug mission of 
the Guard. So they currently do have another mission, as well. 
I think the point that was made out here is that they are in 
the right places and that they can be trained. Once trained, 
you can call upon them when you need them.
    Mr. Larsen. And it is not always a zero-sum game, is the 
problem. If you activate a particular unit, what are you taking 
out of that community? There are a lot of police officers that 
are also National Guardsmen. We found that in Dark Winter when 
Senator Nunn said let's activate all the reserve medical units.
    How many doctors are you taking out of hospitals, and 
nurses out of hospitals that are already--and it turns out the 
Pentagon doesn't have that in a computer data base we can look 
at. If you activate a unit that is a medical battalion in 
Pittsburgh, what do you do to the hospitals in Pittsburgh? We 
need that information. That is why I say I think this is 
something that needs to be studied very specifically and in a 
very quick time span.
    Mr. Flynn. Let me just add, in Houston, again, if we do a 
rollout, do a major sealift operation to a war contingency plan 
here, the Coast Guard and the few limited resources that are 
trying to protect that channel and all the critical 
infrastructure, which is the bulk of our energy supplies for 
our Nation, will be drawn away to do escorts for those rollout 
things.
    The Department of Defense is fully expecting that the Coast 
Guard will be providing that force protection capability during 
those rollouts. That will leave nothing left over for that 
other critical vulnerability. So these are the kinds of 
conversations that we have not had.
    I think that is why it is so important to get the 
Department of Homeland Security on board and running, because 
that kind of issue will then be rising to the top. It is not an 
agency head trying to struggle with it in a morass. It will be 
something that you get some policy resolution on.
    Chairperson Feinstein. Any other questions, Senator Kyl, 
Senator DeWine?
    Senator Kyl. Madam Chairman, I just look forward to 
continuing to work. We keep saying, well, could you come back 
one more time and could you keep giving us information? But I 
really appreciate the effort of everyone here. Your staff, I 
know, has worked very hard as well, and I do look forward to 
continuing to get your advice. It is very helpful.
    Chairperson Feinstein. It has been requested and the price 
is right, so we expect to get some standards.
    Senator DeWine. Madam Chairman, one last comment, and I am 
not going to ask for a response today. But one of the things I 
found interesting, Senator Rudman, was your recommendation in 
regard to looking at the antitrust exemptions for private 
companies. I would like to look at that as far as what actually 
the need is.
    As you know, Senator Kohl is currently the Chairman of the 
Subcommittee. I am the ranking Republican on the Subcommittee. 
It is possible that in January I will still be there and I will 
be the Chairman. So that is something that we will want to work 
with you on.
    Senator Rudman. We would very much like to give you some 
material on that. We don't think it will be very controversial 
because it really will be doing something that the Government 
is going to mandate them to do. So we will get something to 
you.
    Senator DeWine. We look forward to working with you on 
that.
    Senator Rudman. And I want to say to the Chairman--you 
asked a question, how much would it cost? I did a quick 
calculation. For instance, if you wanted to give chemical-
biological protection equipment to every one of those 
responders, all 650,000 of them, it would cost about $500 
million. Well, that is a lot of money in one sense, but it 
isn't in another sense. Besides, that is not what you would do. 
You would have a certain number of units in each community that 
would be equipped. They would be a response unit.
    So we are not talking the kind of dollars that would we are 
talking when we talk about a defense budget or an entitlement 
program. I mean, to buy that kind of equipment, communications 
equipment, we are talking several billion dollars, but we are 
not talking about the kind of mega numbers.
    When I was on the Appropriations Committee, I always used 
to remember Everett Dirksen's great line, except I changed it 
from a million to a billion. A billion here, a billion there, 
eventually it adds up to real money. Well, the fact is that $2 
to $3 billion in homeland security, properly spent, would give 
this Nation a terrific amount of preparation for what we are 
literally naked right now facing these threats, which is what 
the Colonel has said. It is what Phil Odeen has said. It is 
what we believe. I know that is a hard sell, but it will be a 
lot harder sell if something happens and we are not prepared.
    Chairperson Feinstein. There is a bill that has just come 
out of the Environment Committee that authorizes $3.5 billion 
for first responders.
    Senator Rudman. Madam Chairman, I had a lot of experience 
with authorization. It is the appropriation I care about.
    Chairperson Feinstein. I know.
    Mr. Flynn. If I may, just one final thing, which is 
security is always a curve of diminishing returns. To get that 
hundred percent is an exponentially lot of effort and energy. 
The first 70 percent often is affordable. The key is to build 
layers of 70-percents that gets you within the mix.
    We are focused on single-point security that we want 100 
percent that always looks prohibitively costly and that will 
fail, likely. It is changing the mentality that it is either/
or, no sense trying because we can't get a hundred percent, to 
realizing that there is relatively low-lying fruit.
    And if there is anything that we try to identify in this 
group, it is, in the scheme of our threat and vulnerabilities, 
relatively low-cost investments can be done quickly and can 
make us an order of magnitude more secure. This is a difference 
between potentially hundreds of American lives lost and tens of 
thousands, and that should be clearly something we would be 
willing to invest in.
    Chairperson Feinstein. Absolutely. Thank you, gentlemen, 
very, very much. Very good panel. We are very grateful.
    I would like to put in the record a statement by Dr. Elaine 
Kamarck and the Hart-Rudman Task Force Report.
    Thank you, and the hearing is adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]
    [GRAPHIC] [TIFF OMITTED] T8882.001
    
    [GRAPHIC] [TIFF OMITTED] T8882.002
    
    [GRAPHIC] [TIFF OMITTED] T8882.003
    
    [GRAPHIC] [TIFF OMITTED] T8882.004
    
    [GRAPHIC] [TIFF OMITTED] T8882.005
    
    [GRAPHIC] [TIFF OMITTED] T8882.006
    
    [GRAPHIC] [TIFF OMITTED] T8882.007
    
    [GRAPHIC] [TIFF OMITTED] T8882.008
    
    [GRAPHIC] [TIFF OMITTED] T8882.009
    
    [GRAPHIC] [TIFF OMITTED] T8882.010
    
    [GRAPHIC] [TIFF OMITTED] T8882.011
    
    [GRAPHIC] [TIFF OMITTED] T8882.012
    
    [GRAPHIC] [TIFF OMITTED] T8882.013
    
    [GRAPHIC] [TIFF OMITTED] T8882.014
    
    [GRAPHIC] [TIFF OMITTED] T8882.015
    
    [GRAPHIC] [TIFF OMITTED] T8882.016
    
    [GRAPHIC] [TIFF OMITTED] T8882.017
    
    [GRAPHIC] [TIFF OMITTED] T8882.018
    
    [GRAPHIC] [TIFF OMITTED] T8882.019
    
    [GRAPHIC] [TIFF OMITTED] T8882.020
    
    [GRAPHIC] [TIFF OMITTED] T8882.021
    
    [GRAPHIC] [TIFF OMITTED] T8882.022
    
    [GRAPHIC] [TIFF OMITTED] T8882.023
    
    [GRAPHIC] [TIFF OMITTED] T8882.024
    
    [GRAPHIC] [TIFF OMITTED] T8882.025
    
    [GRAPHIC] [TIFF OMITTED] T8882.026
    
    [GRAPHIC] [TIFF OMITTED] T8882.027
    
    [GRAPHIC] [TIFF OMITTED] T8882.028
    
    [GRAPHIC] [TIFF OMITTED] T8882.029
    
    [GRAPHIC] [TIFF OMITTED] T8882.030
    
    [GRAPHIC] [TIFF OMITTED] T8882.031
    
    [GRAPHIC] [TIFF OMITTED] T8882.032
    
    [GRAPHIC] [TIFF OMITTED] T8882.033
    
    [GRAPHIC] [TIFF OMITTED] T8882.034
    
    [GRAPHIC] [TIFF OMITTED] T8882.035
    
    [GRAPHIC] [TIFF OMITTED] T8882.036
    
    [GRAPHIC] [TIFF OMITTED] T8882.037
    
    [GRAPHIC] [TIFF OMITTED] T8882.038
    
    [GRAPHIC] [TIFF OMITTED] T8882.039
    
    [GRAPHIC] [TIFF OMITTED] T8882.040
    
    [GRAPHIC] [TIFF OMITTED] T8882.041
    
    [GRAPHIC] [TIFF OMITTED] T8882.042
    
    [GRAPHIC] [TIFF OMITTED] T8882.043
    
    [GRAPHIC] [TIFF OMITTED] T8882.044
    
    [GRAPHIC] [TIFF OMITTED] T8882.045
    
    [GRAPHIC] [TIFF OMITTED] T8882.046
    
    [GRAPHIC] [TIFF OMITTED] T8882.047
    
    [GRAPHIC] [TIFF OMITTED] T8882.048
    
    [GRAPHIC] [TIFF OMITTED] T8882.049
    
    [GRAPHIC] [TIFF OMITTED] T8882.050
    
    [GRAPHIC] [TIFF OMITTED] T8882.051
    
    [GRAPHIC] [TIFF OMITTED] T8882.052
    
    [GRAPHIC] [TIFF OMITTED] T8882.053
    
    [GRAPHIC] [TIFF OMITTED] T8882.054
    
    [GRAPHIC] [TIFF OMITTED] T8882.055
    
    [GRAPHIC] [TIFF OMITTED] T8882.056
    
    [GRAPHIC] [TIFF OMITTED] T8882.057
    
    [GRAPHIC] [TIFF OMITTED] T8882.058
    
    [GRAPHIC] [TIFF OMITTED] T8882.059
    
    [GRAPHIC] [TIFF OMITTED] T8882.060
    
    [GRAPHIC] [TIFF OMITTED] T8882.061
    
    [GRAPHIC] [TIFF OMITTED] T8882.062
    
    [GRAPHIC] [TIFF OMITTED] T8882.063
    
    [GRAPHIC] [TIFF OMITTED] T8882.064
    
    [GRAPHIC] [TIFF OMITTED] T8882.065
    
    [GRAPHIC] [TIFF OMITTED] T8882.066
    
    [GRAPHIC] [TIFF OMITTED] T8882.067
    
    [GRAPHIC] [TIFF OMITTED] T8882.068
    
    [GRAPHIC] [TIFF OMITTED] T8882.069
    
    [GRAPHIC] [TIFF OMITTED] T8882.070
    
    [GRAPHIC] [TIFF OMITTED] T8882.071
    
    [GRAPHIC] [TIFF OMITTED] T8882.072
    
    [GRAPHIC] [TIFF OMITTED] T8882.073
    
    [GRAPHIC] [TIFF OMITTED] T8882.074
    
    [GRAPHIC] [TIFF OMITTED] T8882.075
    
    [GRAPHIC] [TIFF OMITTED] T8882.076
    
    [GRAPHIC] [TIFF OMITTED] T8882.077
    
    [GRAPHIC] [TIFF OMITTED] T8882.078
    
    [GRAPHIC] [TIFF OMITTED] T8882.079
    
    [GRAPHIC] [TIFF OMITTED] T8882.080
    
    [GRAPHIC] [TIFF OMITTED] T8882.081
    
    [GRAPHIC] [TIFF OMITTED] T8882.082
    
    [GRAPHIC] [TIFF OMITTED] T8882.083
    

</pre></body></html>
